January 31, 2011

STEVEN R. PHELPS
MANAGER, SOX MANAGEMENT CONTROLS AND INTEGRATION

SUBJECT: Interim Management Advisory – Fiscal Year 2011 Financial Testing
         Compliance Oversight Reviews – Santa Ana Processing and Distribution
         Center Business Mail Entry Unit – Santa Ana, CA
         (Report Number FF-MA-11-014)

This report presents interim results for the U.S. Postal Service Office of Inspector
General’s (OIG) fiscal year (FY) 2011 review of the U.S. Postal Service Financial
Testing Compliance (FTC) group’s testing at the Santa Ana Processing and Distribution
Center (P&DC) business mail entry unit (BMEU), Santa Ana, CA (Project Number
11BR004FF010), performed December 13 and 14, 2010. The Santa Ana P&DC is in the
Santa Ana District of the Pacific Area. At the conclusion of FY 2011, we will summarize
the results for all reviews in a report to Postal Service Headquarters.

To comply with Section 404 Sarbanes-Oxley (SOX) Act of 2002 requirements, the
Postal Service must report on the effectiveness of the agency’s internal controls to
ensure accurate financial reporting. It must submit an annual assessment to the Postal
Regulatory Commission which monitors and manages the Postal Service’s compliance
with SOX. The Postal Service established the FTC to conduct tests of key financial
reporting controls.

We conducted this oversight review in support of the independent public accountant’s
(IPA) reliance on Postal Service management’s testing and overall audit opinions on the
financial statements and internal controls over financial reporting. The IPA relies on the
Postal Service’s internal control testing to support the overall audit opinions.

The overall objective of our review was to evaluate whether FTC analysts properly
conducted and documented their examination of SOX financial reporting controls. To
perform this work, we observed FTC analysts conduct tests and reviewed their
supporting documentation. We performed this review from December 2010 through
January 2011 in accordance with the Quality Standards for Investigations.1

1
 These standards were last issued by the President’s Council on Integrity and Efficiency (PCIE) and the Executive
Council on Integrity and Efficiency (ECIE) in January 2005. Since then, The Inspector General Act of 1978 as
amended by the IG Reform Act of 2008 created the Council of the Inspectors General on Integrity and Efficiency
(CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Investigations have not been
amended to reflect adoption by the CIGIE and, as a result, still reference the PCIE and ECIE.




                                             Restricted Information
FY 2011 Financial Testing Compliance Oversight Reviews –                        FF-MA-11-014
 Santa Ana Processing and Distribution Center
 Business Mail Entry Unit – Santa Ana, CA


Conclusion

Based on our review of FTC’s work, we determined the analysts properly conducted
and documented their examination of key SOX financial reporting controls. See
Appendix A for the results of our review.

The interim FTC oversight review advisories will be issued to the SOX manager in final
format. At the conclusion of the fiscal year, the OIG will summarize the results of all its
FTC oversight reviews and include recommendations, if applicable, in a report to Postal
Service Headquarters management. Management agreed not to respond to the interim
reports but will have the opportunity to formally respond to the draft summary report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Carla Tate, audit manager, at
510-285-9026, or me at 510-285-9024.

 -Signed by Linda J. Libician-Welc
VERIFY authenticity with ApproveI



Linda J. Libician-Welch
Director, Field Financial – West

Attachments

cc:     Douglas G. Germer
        Corporate Audit and Response Management




                                                   2
                                        Restricted Information
 FY 2011 Financial Testing Compliance Oversight Reviews –                                                      FF-MA-11-014
  Santa Ana Processing and Distribution Center
  Business Mail Entry Unit – Santa Ana, CA

                                                 APPENDIX A: REVIEW RESULTS

       Site Name                                                Santa Ana Processing and Distribution Center
       Unit Cost Center Code                                    0569360100
       Location Type                                            BMEU
       Scope Period Under Review                                October 1 – December 11, 2010
       FTC Review Program Version and Date                      November 24, 2010
       FTC Team                                                 West

                                                                                             Did the FTC     Did the OIG
                                                               Did the OIG     Did the FTC   adequately    agree with the
                                                                  have         perform the    document          FTC’s
                                              Did the FTC      exceptions/        step in      its work      exceptions/
                                                  have          findings       accordance    performed     findings (or no
                                              exceptions/       that FTC           to its       and the      exceptions/
FTC Review            FTC Review Step       findings in this    did not?        program?       results?       findings?
Step#/Control#           Description        step? (Yes/No)      (Yes/No)         (Yes/No)      (Yes/No)        (Yes/No)
                    Mail Check-
450001/104CA63                                    No               No                Yes         Yes             Yes
                    In/Receipt
450002/104CA2       Mail Verification             Yes              No                Yes         Yes             Yes
450003/104CA65      Placarding/Induction          No               No                Yes         Yes             Yes
                    End-of-Day
450004/104CA66                                    No               No                Yes         Yes             Yes
                    Reconciliation
450005/104CA06      SOX Certification             No               No                Yes         Yes             Yes
                    Finalizing Postage
450006/104CA1                                     No               No                Yes         Yes             Yes
                    Statements




                                                                       3
                                                            Restricted Information
